APPENDIX A
Opinion of the United States Court of Appeals for the Eleventh Circuit denying
motion for Certificate of Appealability on February 21,2020.

3

Case: 18-12465

Date Filed: 02/21/2020

Page: 1 of 4
[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-12465
Non-Argument Calendar
D.C. Docket No. l:18-cv-20872-CMA

ANTHONY ATES,
Petitioner-Appellant,
versus
STATE OF FLORIDA,
Respondent-Appellee.

Appeal from the United States District Court
for the Southern District of Florida
(February 21, 2020)
Before WILLIAM PRYOR, JORDAN and TJOFLAT, Circuit Judges.
PER CURIAM:

Case: 18-12465

Date Filed: 02/21/2020

Page: 2 of 4 .

Anthony Ates, a Florida prisoner, appeals the sua sponte dismissal of his
petition for a writ of habeas corpus as untimely. We issued a certificate of
appealability on the issue whether the district court erred in sua sponte determining
that Ates’s petition was untimely without reviewing the complete, official state
court record. We affirm.
Ates is serving a thirty-year sentence in Florida for aggravated battery,
armed robbery, and violation of community control. After filing several
postconviction motions in state court, Ates filed a petition for a writ of habeas
corpus in federal court. See 28 U.S.C. § 2254. A magistrate judge reviewed Ates’s
petition for timeliness. Because the one-year period in which a petitioner must file
his petition is tolled while he has a pending state postconviction motion, id. at
§ 2244(d)(2), the magistrate judge took judicial notice of the online state trial and
appellate court dockets from Ates’s state proceedings to determine the relevant
dates for the limitations period. It concluded that Ates’s petition was untimely and
recommended dismissing the petition on that ground.
Ates objected to the magistrate judge’s report. He acknowledged that he
filed his petition after the limitations period but argued that he was entitled to
statutory and equitable tolling. Yet he did not object to the dates the magistrate
judge used to calculate the timeliness of his petition, nor did he ask to be heard on
the issue of the court taking judicial notice. The district court adopted the
2

Case: 18-12465

Date Filed: 02/21/2020

Page: 3 of 4

magistrate judge’s report and dismissed the petition as untimely after concluding
that Ates filed his petition well beyond the one-year limitations period and that he
was not entitled to equitable tolling. Ates appealed and now argues that the district
court erred in dismissing his petition after taking judicial notice of his online statecourt records instead of considering the official state-court records.
We review for an abuse of discretion the district court’s decision to take
judicial notice of a fact and its decision to sua sponte raise the statute of
limitations. Paez v. Sec’y, Fla. Dep’t of Corr., 947 F.3d 649, 651 (11th Cir. 2020).
Our recent decision in Paez controls this appeal. In Paez, a magistrate judge
took judicial notice of online-state-court docket entries as part of its preliminary
assessment of the petition and, based on the dates for those entries, recommended
sua sponte dismissing the petition as untimely. Id. at 651. The petitioner had the
opportunity to object to the magistrate judge’s report but did not ask to be heard on
the issue of the court taking judicial notice, nor did he contest the dates on which
the magistrate judge relied. Id. at 651, 653. The district court sua sponte dismissed
the petition as untimely, and we affirmed. Id. at 655. We held that a district court
may take judicial notice of online-state-court docket entries when it uses necessary
safeguards, which are present when it provides the petitioner with “an opportunity
to ask to be heard on the propriety of judicial notice.” Id. at 652-53. We also held
that a district court may sua sponte dismiss a petition at the screening stage for
3

Case: 18-12465

Date Filed: 02/21/2020

Page: 4 of 4

untimeliness if it provides the petitioner with notice and an opportunity to be
heard. Id. at 653.
The same is true here. The district court did not abuse its discretion in taking
judicial notice of the electronic state court docket entries because Ates had ample
notice and opportunity to be heard. The magistrate judge made the electronic
dockets part of the record, and the clerk mailed a copy of them to Ates. Ates never
alleged that he did not receive the records or was otherwise unaware of them. He
had the opportunity to challenge the accuracy of the electronic dockets'or to ask to
be heard on the issue when he objected to the magistrate judge’s recommendation,
but he did not.
Nor did the district court abuse its discretion in sua sponte dismissing the
petition for untimeliness because it provided Ates with notice and an opportunity
to be heard. Id. at 653; see also Day v. McDonough, 547 U.S. 198, 209-10 (2006).
Ates had the opportunity to object to the magistrate judge’s report and to dispute
its conclusion that his petition was untimely. And the state was notified of the
magistrate judge’s recommendation but never stated an intent to waive the
limitations bar. We discern no error in the ruling that Ates’s petition was untimely
and not entitled to equitable tolling.
We AFFIRM the sua sponte dismissal of Ates’s petition as untimely.

4

APPENDIX B
Order from the United States District Court for the Southern District of Florida
denying Petitioner’s petition for writ of habeas corpus and request for an
evidentiary hearing, dated May 15, 2018.

4

V,
Case l:18-cv-20872-CMA Document 11 Entered on FLSD Docket 05/15/2018 Page 1 of 6

i'

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 18-20872-CIV-ALTONAGA/White
ANTHONY ATES,
I

Petitioner,
v.
STATE OF FLORIDA,
Respondent.

ORDER
On March 7, 2018, Petitioner, Anthony Ates, filed a pro se Petition for Relief From a
Conviction or Sentence By a Person in State Custody [ECF No. 1], and accompanying
Memorandum of Law [ECF No. 3], The Clerk referred the case to Magistrate Judge Patrick A.
White under Administrative Order 2003-19 for a ruling on all pre-trial, non-dispositive matters
and for a report and recommendation on any dispositive matters. (See [ECF No. 2]). On March
12, 2018, Magistrate Judge White entered a Report of Magistrate Judge [ECF No. 7],
recommending the Petition, filed under 28 U.S.C. section 2254, be denied as untimely.
(See generally Report). On April 17, 2018, Petitioner filed his Motion to Object (“Objections”)
[ECF No. 10] to the Report.
When a magistrate judge’s “disposition” has been properly objected to, district courts
must review the disposition de novo. Fed. R. Civ. P. 72(b)(3). Although Rule 72 is silent on the
standard of review, the Supreme Court of the United States has determined Congress’s intent
was to require de novo review only when objections were properly filed, not when neither party
objects. See Thomas v. Am, 474 U.S. 140, 150 (1985) (“It does not appear that Congress
intended to require district court review of a magistrate[] [judge]’s factual or legal conclusions,

Case l:18-cv-20872-CMA Document 11 Entered on FLSD Docket 05/15/2018 Page 3 of 6
CASE NO. 18-20872-CIV-ALTONAGA/White
id. 3). The state court docket indicates there was no further activity involving case number 94CF-11073.
With regard to case number 95-CF-34118, the judgment and sentence were imposed on
July 5, 1996. (See id. 3). Petitioner filed a direct appeal, which the Florida Third District Court
of Appeal denied in a per curiam decision dated November 26, 1997. See Bates v. State, 702 So.
2d 501 (Fla. 3d DCA 1997).2 Petitioner proceeded to file several motions for postconviction
relief. (See Report 3). The mandate for the case issued on April 21, 2017. (See id.). The state
court docket indicates there was no further activity involving case number 95-CF-34118.
From the date state court activity for case number 94-CF-011073 came to an end on
January 23, 2015, until the instant Petition was filed on March 6, 2018, 1,138 untolled days
elapsed. (See id. 5-6). For case number 95-CF-34118, the convictions and sentence became
final on February 24, 1998 — the last day Petitioner could have timely filed a petition for writ of
certiorari. (See id. 7-8 (citing Williams v. Sec y, Fla. Dep’t of Corr., 674 F. App’x 975, 976
(11th Cir. 2017); Clay v. United States, 537 U.S. 522, 527 (2003))).
Petitioner’s first postconviction motion related to case number 95-CF-34418 was filed on
October 29, 1998. (See id. 8). Assuming the October 29, 1998 motion was properly filed, 246
untolled days elapsed between February 24, 1998 and October 29, 1998. (See id.). From April
21, 2017, the last date of state court activity in case number 95-CF-34418, until March 6, 2018,
an additional 319 untolled days elapsed. (See id.). In total, 565 untolled days elapsed before the
Petition was filed. (See id. 9).
The Report correctly calculates well over one year elapsed untolled when combining the
time period between finality of the convictions and sentences and Petitioner’s first motion for
postconviction relief (246 untolled days), and the time period between the final decision on
2 The Third District Court of Appeal refers to Petitioner as Anthony Bates.
3

Case l:18-cv-20872-CMA Document 11 Entered on FLSD Docket 05/15/2018 Page 4 of 6
CASE NO. 18-20872-CIV-ALTONAGA/White
Petitioner’s last effort to seek postconviction relief and the date of the instant Petition (319
untolled days). (See Report 8-9). In total, at least 565 untolled days elapsed. (See id. 9).
The AEDPA establishes a one-year statute of limitations on petitions for the writ of
habeas corpus filed by state prisoners. See 28 U.S.C. § 2244(d)(1). The statute of limitations
begins to run one year after the latest of:
(A) the date on which the judgment became final by the conclusion of direct
review or the expiration of the time for seeking such review;
(B) the date on which the impediment to filing an application created by State
action in violation of the Constitution or laws of the United States is removed, if
the applicant was prevented from filing by such State action;
(C) the date on which the constitutional right asserted was initially recognized by
the Supreme Court, if the right has been newly recognized by the Supreme Court
and made retroactively applicable to cases on collateral review; or
(D) the date on which the factual predicate of the claim or claims presented could
have been discovered through the exercise of due diligence.
Id. §§ 2244(d)(l)(A)-(D). However, “[t]he time during which a properly filed application for
State post-conviction or other collateral review with respect to the pertinent judgment or claim is
pending shall not be counted toward any period of limitation.” Id. § 2244(d)(2) (alteration
added).
Petitioner acknowledges he bears the burden of establishing (1) he has been diligently
pursuing his case, and (2) an extraordinary circumstance stood in his way in timely filing his
Petition.

(See Objs. (citing Irwin v. Dep’t of Veterans Affairs, 498 U.S. 89, 96 (1990))).

Petitioner states he filed “over ‘200 motions,”’ and argues the state courts’ delay in adjudicating
his post-conviction motions is an extraordinary circumstance that caused delay in his filing.
(Mem. 2). Petitioner argues he is entitled to equitable tolling. (See id.).
Equitable tolling “is an extraordinary remedy limited to rare and exceptional

4

Case l:18-cv-20872-CMA Document 11 Entered on FLSD Docket 05/15/2018 Page 5 of 6
CASE NO. 18-20872-CIV-ALTONAGA/White
circumstances and typically applied sparingly.” Cadet v. Fla. Dep’t of Corr., 742 F.3d 473, 477
(11th Cir. 2014) (internal quotation marks and citation omitted). Equitable tolling is required
where a petitioner shows reasonable diligence, see Holland v. Florida, 560 U.S. 631,645 (2010),

l

and a causal connection between the alleged extraordinary circumstances and the late filing of
the petition, see San Martin v. McNeil, 633 F.3d 1257, 1267 (11th Cir. 2011).
While Petitioner spent over a decade litigating in state court, he has not shown reasonable
diligence in waiting 319 days between the final denial of his many requests for postconviction
relief and the filing of the instant Petition. (See Report 10 (citing Holland, 560 U.S. at 653)).
Furthermore, Petitioner does not show a causal connection between the state courts’ delay in
adjudicating Petitioner’s postconviction requests and Petitioner’s delay in filing the Petition once
the state courts denied him final relief. (See id. 10-11). Therefore, the Report rightly finds there
are no exceptional circumstances warranting the extraordinary remedy of equitable tolling. (See
id. 11).
Petitioner does not contend the government created any other impediment to timely filing
beyond its delay in adjudicating requests for postconviction relief, nor does he rely on an
alternative commencement date for the limitations period, or state his claim is based on a newlyrecognized constitutional right or new facts of which he became aware in the year prior to the
filing of his Petition. (See generally Pet.; Mem.). Petitioner has not provided any other express
argument to excuse the lateness in filing the Petition.

He does not raise a claim of actual

innocence, but rather attacks claimed sentencing errors and improper designation as a habitual
felony offender. (See Report 13). As such, Petitioner “has not presented sufficient evidence to
undermine the court’s confidence in the outcome of his criminal proceedings” to warrant relief
on the basis of actual innocence or to show a fundamental miscarriage of justice is likely if the

5

Case l:18-cv-20872-CMA Document 11 Entered on FLSD Docket 05/15/2018 Page 6 of 6

CASE NO. 18-20872-CIV-ALTONAGA/White
Court declines to review Petitioner’s claims on the merits. (Report 13 (citing Milton v. Sec’y,
Dep’t of Corr., 347 F. App’x 528, 531-32 (11th Cir. 2009))). For the foregoing reasons, it is
ORDERED AND ADJUDGED that the Report [ECF No. 7] is AFFIRMED AND
ADOPTED. The Petition [ECF No. 1] is DISMISSED for lack of jurisdiction. No certificate
of appealability shall issue. The Clerk of Court is directed to CLOSE this case.
DONE AND ORDERED in Miami, Florida, this 15th day of May, 2018.

U
CECILIA M. ALTONAGA
UNITED STATES DISTRICT JUDGE
cc:

Magistrate Judge Patrick A. White;
Anthony Ates, pro se

6

;

I

:

APPENDIX C
Opinion of the United States Court of Appeals for the Eleventh Circuit denying
motion for rehearing, dated February 11,2021.

5

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www.cal 1 .uscourts.gov

David J. Smith
Clerk of Court

February 11, 2021
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 18-12465-DD
Case Style: Anthony Ates v. State of Florida
District Court Docket No: 1:18-cv-20872-CMA
The enclosed order has been entered on petition(s) for rehearing.
See Rule 41, Federal Rules of Appellate Procedure, and Eleventh Circuit Rule 41-1 for
information regarding issuance and stay of mandate.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Bradly Wallace Holland, DD/lt
Phone #: 404-335-6181
REHG-1 Ltr Order Petition Rehearing

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 18-12465-DD

ANTHONY ATES,
Petitioner - Appellant,
versus
STATE OF FLORIDA,
Respondent - Appellee.

Appeal from the United States District Court
for the Southern District of Florida
BEFORE: WILLIAM PRYOR, JORDAN and TJOFLAT, Circuit Judges.
PER CURIAM:
The Petition for Panel Rehearing filed by Anthony Ates is DENIED.

ORD-41

